Smithsonian Institution
Office of the Inspector General



April 27, 2012

Via Electronic Transmission

Honorable Darrell Issa
United States House of Representatives
Committee on Oversight and Government Reform
2157 Rayburn House Office Building
Washington, DC 20515-6143

Dear Chairman Issa:

We received your letter, dated April 4, 2012, in which you requested information about
our open and unimplemented recommendations. The following is our response to your
InqUIry.

1. Identify the current number of open and unimplemented IG recommendations.

We have 60 open and unimplemented recommendations, of which 8 are past-due and 52
have implementation dates that have not yet passed.

2. For those recommendations that have an estimated cost savings associated with them,
identify each recommendation, the date it was first recommended, and the total estimated cost
savings your office believes would be possible if agency management implemented the
recom mendation.

We do not have any open recommendations that have quantifiable cost savings.
However, we are tracking cost savings associated with a closed recommendation from the
Administration of the Workers Compensation Program audit. The potential cost saving
of that recommendation is approximately $4.2 million.

3. Of the open and unimplemented recommendations identified, which does your office
consider to be the three most important? For each identify:

         a. The status of the recommendation, including whether agency management has
         agreed or disagreed with the recommendation;
         b. The cost savings associated with the recommendation (if applicable); and,
         c. Whether there are plans to implement the recommendation in 2012.

We believe that three areas we have audited are of particular concern: security of
information systems; privacy; and stewardship of museum collections. The Smithsonian
has agreed with our recommendations in these areas. Accordingly, we consider the
following sets of open and unimplemented recommendations to be the most important.




MRC 524
PO Box 37012
Washington DC 20013-7012
202.633.7050 Telephone
202.633.7079 Fax
The Honorable Darrell Issa
April 27, 2012
Page 2

Security of Information Systems

We have issued a series of recommendations to improve the security and integrity of the
Institution's information systems. The following are some of the more important open
recommendations:

    • 	 Based on the type of personally identifiable information (PII) stored in the 

        system, re-assess the security categorization for major systems currently 

        categorized as low-impact systems; 

    • 	 Ensure that all systems are addressed in system security plans in accordance with
        OMB and NIST guidelines;
    • 	 Establish procedures to ensure existing policies requiring the use of standard
        configuration baselines are implemented and enforced; and
    • 	 Implement controls to ensure that all Smithsonian-owned laptops/mobile devices
        that may be used to store sensitive information are secured with an appropriate
        encryption technology.

The Smithsonian has agreed to implement these recommendations in this calendar year.

Privacy

We have issued a series ofrecommendations to strengthen the Institution's privacy
program. In 2010, the Smithsonian hired a Privacy Officer who is in the process of
building a privacy program. We recently met with the Privacy Officer and the Under
Secretary for Finance and Administration (USF&A) to discuss the ten outstanding
privacy recommendations. These recommendations include:

     • 	 Reducing the PII holdings to the extent practicable;
     • 	 Developing and implementing privacy policies and procedures to support an
         overall privacy program that address privacy-related risks, that safeguards
         documents with PIl, and that identifies and documents PII used by the
         Smithsonian;
     • 	 Enforcing compliance with new and existing privacy policies related to the
         protection of sensitive documents containing PIl; and
     • 	 Developing and implementing procedures for conducting privacy impact
         assessments.

We will continue to work with the Privacy Officer and the USF&A to prioritize these
recommendations, determine if any of them are no longer relevant, and discuss a plan of
action to close these recommendations.

Stewardship of Museum Collections

We have issued a series of recommendations to improve the stewardship of the
collections at several Smithsonian museums. The recommendations pertain to collection
practices such as accurate inventories, appropriate preservation programs, and adequate
security. This year, we expect the Smithsonian to develop and refine catalog standards for
completing object records, as well as to convert manual records to electronic formats. In
addition, we anticipate management will develop a prioritized plan for addressing a pan­
Tile Honorable Darrell Issa
April 27, 2012
Page 3

Institutional collections storage needs. However, as we mentioned last year, improving
the collections management practices will require a long-term commitment on the part of
the museums.

4. Identify the number of recommendations your office deems accepted and implemented by
the agency during the time period from April 7, 2011, to the present.

From April 7, 2011 to the present, we have closed 30 recommendations after they were
accepted and implemented by the Smithsonian.

Please do not hesitate to call me on 202.633.7050 if you have any questions or if you
would like to discuss our work.


Sincerely,


   A-9~
Scott S. Dahl
Inspector General

cc:      The Honorable Elijah E. Cummings, Ranking Member
